 ~ stRVICES.




('Æ
~,-:~
                                         DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                                   OFFICE OF AUDIT SERVICES
                                                  233 NORTH MICHIGAN AVENUE
                                                    CHICAGO, ILLINOIS 60601
                                                                                                        REGIONV
                                                                                                      OFFICE OF
                                                                                                 INSPECTOR GENERAL
                                                      February 6, 2009

         Report Number: A-05-08-00025

         Mr. Cal Ludeman
         Commissioner
         Minnesota Department of Human Services
         P.O. Box 64998
         St. Paul, Minnesota 55164-0998

         Dear Mr. Ludeman:

         Enclosed is the U.S. Department of        Health and Human Services (HHS), Offce ofInspector
         General (OIG), final report entitled "Review of Section 1915(c) Mental Retardation or Related
         Conditions Waiver Services at ACR Homes, Inc., From July 1,2004, Through June 30, 2005."
         We will forward a copy of this report to the HHS action offcial noted on the following page for
         review and any action deemed necessary.

         The HHS action offcial will make final determination as to actions taken on all matters reported.
         We request that you respond to this official within 30 days from the date of this letter. Your
         response should present any comments or additional information that you believe may have a
         bearing on the final determination.

         Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
         available to the public to the extent the information is not subject to exemptions in the Act.
         Accordingly, this report wil be posted on the Internet at http://oig.hhs.gov.

          If you have any questions or comments about this report, please do not hesitate to call me, or
          contact Lynn Barker, Audit Manager, at (317) 226-7833, extension 21 or through e-mail at
          Lynn.Barkerimoig.hhs.gov. Please refer to report number A-05-08-00025 in all correspondence.

                                                           Sincerely,


                                                          ~G~n
                                                           Regional Inspector General
                                                            for Audit Services


          Enclosure
Page 2 - Mr. Cal Ludeman


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicaid & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Ilinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF SECTION 1915(C)
   MENTAL RETARDATION OR
 RELATED CONDITIONS WAIVER
                               SERVICES         AT
        ACR HOMES, INC.,
 FROM   JULY 1,2004, THROUGH
         JUNE 30, 2005




              ~~ S1'RVIC'£S.


                                          Daniel R. Levinson
                                           Inspector General

        (~   -I
        "1- -;                              February 2009
         ';4-.l/!
                    f,á3   0
                                            A-05-08-00025
                             Office of Inspector General
                                                        http:// oig.hhs.gov




The mission of        the Offce ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Offce of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carring out their
respective responsibilities and are intended to provide independent assessments ofHHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and effciency throughout HHS.

Office of Evaluation and Inspections

The Office of  Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Offce of Investigations
The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilzes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Offce of Counsel to the Inspector General
The Offce of                                                            legal services to OIG,
                    Counsel to the Inspector General (OCIG) provides general

rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.



 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of GAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare and Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

Section 1915(c) of the Act authorizes Medicaid Home and Community-Based Services (HCBS)
waiver programs. A State’s HCBS waiver program must be approved by CMS and allows the
State to claim Federal reimbursement for those services not usually covered by Medicaid. These
HCBS services are generally provided to Medicaid-eligible beneficiaries in a home or
community-based setting instead of an institutional setting.

The Minnesota Department of Human Services (State agency) provides oversight for
Minnesota’s Medicaid program, known as Medical Assistance, for compliance with Federal
requirements. The Minnesota Mental Retardation or Related Condition (MR/RC) waiver
program is one of five CMS-approved Section 1915(c) HCBS waivers that receive Federal
reimbursement. The State agency’s Disability Services Division monitors the MR/RC waiver
program, and the county social service agencies (county offices) administer the program.

The State agency claimed Federal reimbursement totaling $421 million for services provided by
1,361 providers under the MR/RC waiver program during State fiscal year (SFY) 2005 (July 1,
2004, through June 30, 2005). During this time, ACR Homes, Inc. (ACR) received Medicaid
reimbursement totaling $13.8 million ($6.9 million Federal share), which was the second largest
amount of payments under the MR/RC waiver program.

OBJECTIVE

Our objective was to determine whether the State agency’s claim for Medicaid reimbursement
for MR/RC waiver services provided by ACR during SFY 2005 complied with Federal and State
requirements.

SUMMARY OF FINDINGS

During SFY 2005, the State agency claimed waiver services totaling $9,559 ($4,780 Federal
share) that did not comply with Federal or State requirements and we estimate the State agency
claimed waiver services totaling $198,539 ($99,270 Federal share) that may not have been
allowable for Medicaid reimbursement. Of the 100 random beneficiary- months reviewed, the
State agency claimed reimbursement for HCBS that:




                                               i
   •	 were provided by ACR and were allowable for 85 beneficiary months,

   •	 were unallowable for 7 beneficiary-months because ACR did not meet documentation
      requirements (2 of these beneficiary-months also included HCBS that may have been
      unallowable and are included within the next statement); and

   •	 may have been unallowable for 10 beneficiary-months because we could not determine
      whether the services claimed were actually provided or allowable for reimbursement.

The claims for unallowable services were made because ACR did not implement sufficient
internal controls to ensure it documented and claimed reimbursement only for allowable services
actually provided and county offices did not maintain individual service plans (ISPs) and provide
all ISPs to ACR. The claims for services that may have been unallowable related to “leave
days,” which are days in which beneficiaries were temporarily absent from HCBS, but for which
ACR may have been responsible for the beneficiaries’ “24-hour plan of care.” Minnesota
Administrative Code, State agency guidance, and county office contracts with ACR did not
consistently define “leave days” or describe how reimbursement for these days should be
determined for HCBS providers. Consequently, we could not determine whether the State
agency claims for HCBS during beneficiaries’ “leave days” were allowable.

RECOMMENDATIONS

We recommend the State agency:

   •	 refund $4,780 to the Federal Government for unallowable HCBS claimed in SFY 2005;

   •	 work with CMS to resolve the $198,539 ($99,270 Federal share) in payments that may
      have been unallowable for HCBS claimed when beneficiaries may have been on “leave
      days;”

   •	 require county offices to maintain ISPs in accordance with Federal and State
      requirements, provide ISPs to ACR, and review provider contracts for compliance with
      State policy on “leave days;” and

   •	 require ACR to strengthen its internal controls to ensure it documents and claims
      reimbursement for MR/RC waiver services actually provided in accordance with Federal
      and State requirements.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, the State agency stated that it will review the
unsupported claim payments to determine the reason(s) for the lack of documentation, develop a
plan of correction to address those reasons, and verify the amount of the disallowance. The State
agency indicated that it will work with CMS to resolve the $198,539 in questioned costs and will
require Dakota, Ramsey, and Hennepin counties and ACR to provide plans of correction and


                                               ii
timetables to implement corrective actions. The State agency’s comments are included in their
entirety as Appendix C.

We continue to recommend that the State agency refund $4,780 to the Federal Government.




                                              iii
                                              TABLE OF CONTENTS 

                                                                                                                       Page

INTRODUCTION..........................................................................................................1 


          BACKGROUND .................................................................................................1         

              Medicaid Program....................................................................................1             

              1915(c) Waivers.......................................................................................1           

              Minnesota’s Mental Retardation or Related Condition Waiver ..............1 

              ACR Homes, Inc......................................................................................2             


          OBJECTIVE, SCOPE AND METHODOLOGY ................................................2 

               Objective ..................................................................................................2    

               Scope........................................................................................................2   

               Methodology ............................................................................................2        


FINDINGS AND RECOMMENDATIONS ................................................................4 


          UNALLOWABLE HOME AND COMMUNITY-BASED SERVICES ...........4 

              Federal Requirements ..............................................................................4              

              State Requirements .................................................................................5             

              Unallowable Payments.............................................................................5                


          POTENTIALLY UNALLOWABLE
           HOME AND COMMUNITY-BASED SERVICES..........................................6 

               Federal Requirements ..............................................................................6             

               State Requirements .................................................................................6            

               Payments for Waiver Leave Days............................................................6 


          RECOMMENDATIONS.....................................................................................7                 


          STATE AGENCY COMMENTS AND 

          OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................7 



APPENDIXES

          A – SAMPLING METHODOLOGY 

          B – SAMPLE RESULTS AND ESTIMATES 

          C – STATE AGENCY COMMENTS





                                                                  iv
                                      INTRODUCTION 


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare and Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements. The Minnesota Department of Human Services (State
agency) provides oversight of Minnesota’s Medicaid program, known as Medical Assistance, for
compliance with Federal requirements.

1915(c) Waivers

Section 1915(c) of the Act authorizes Medicaid Home and Community-Based Services (HCBS)
waiver programs. A State’s HCBS waiver program must be approved by CMS and allows the
State to claim Federal reimbursement for those services not usually covered by Medicaid. HCBS
services are generally provided to Medicaid-eligible beneficiaries in a community rather than an
institutional setting. With CMS approval and pursuant to section 1915(c)(4)(B), States
determine the services that may be provided under the waiver program including:

       . . . case management services, homemaker/home health aide services and personal care
       services, adult day health services, habilitation services, respite care, and such other
       services requested by the State as the Secretary may approve and for day treatment or
       other partial hospitalization services, psychosocial rehabilitation services, and clinic
       services (whether or not furnished in a facility) for individuals with chronic mental
       illness.

Minnesota’s Mental Retardation or Related Condition Waiver

In Minnesota, the Mental Retardation or Related Condition (MR/RC) waiver program is one of
five Section 1915(c) HCBS waivers that receive Federal reimbursement and are approved by
CMS. The MR/RC waiver allows the State agency to claim Medicaid reimbursement for HCBS
provided to individuals with mental retardation or related conditions in a home or community
setting instead of an institutional setting. The State agency’s Disability Services Division
monitors the MR/RC waiver program, and the county social service agencies (county offices)
administer the program. The State agency claimed Federal reimbursement totaling $421 million
for HCBS provided by 1,361 providers under the MR/RC waiver program during State fiscal
year (SFY) 2005 (July 1, 2004, through June 30, 2005).




                                               1

ACR Homes, Inc.

ACR Homes, Inc. (ACR) provided HCBS to 164 individuals under contracts with five Minnesota
counties1 during SFY 2005. During this time, ACR received Medicaid reimbursement totaling
$13.8 million ($6.9 million Federal share), which was the second largest amount of payments
under the MR/RC waiver program.

This review of the State agency’s claim for reimbursement for HCBS at ACR is one in a series of
reports regarding Minnesota’s claims for HCBS.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claim for Medicaid reimbursement
for MR/RC waiver services provided by ACR during SFY 2005 complied with Federal and State
requirements.

Scope

Our review covered the State agency’s claims for Medicaid reimbursement for HCBS provided
by ACR under the MR/RC waiver program for SFY 2005. The State agency claimed $13.8
million ($6.9 million Federal share) for 29,688 services provided by ACR during 1,866
beneficiary-months2 for this period. We selected a simple random sample of 100 beneficiary-
months with payments totaling $742,608 ($371,304 Federal share) for review. The scope of our
audit did not include a medical review or an evaluation of the medical necessity for the services
that ACR provided and claimed reimbursement.

We limited our review to gaining an understanding of the State agency’s controls related to
Medicaid claims and payments and to the operation of the MR/RC waiver program. We
reviewed ACR internal controls for providing, documenting, and claiming reimbursement for
HCBS. We did not review the propriety of HCBS payment rates.

We performed fieldwork at ACR in Roseville, Minnesota, the State agency in St. Paul,
Minnesota, and county offices from March through August 2008.

Methodology

To accomplish our objective, we:
   •	 reviewed Federal and State law, Medicaid HCBS waiver regulations, the CMS “State
       Medicaid Manual,” the Minnesota Disability Services Program Manual, and the CMS-
       approved MR/RC waiver;

1
    The counties were Anoka, Dakota, Hennepin, Ramsey and Washington.
2
A beneficiary-month includes all HCBS for a beneficiary for one month. The beneficiary-month can include
multiple services.


                                                       2

   •	 interviewed CMS, State agency, county office, and ACR officials regarding the waiver
      policies, procedures, and documentation requirements for the MR/RC waiver program;

   •	 reconciled the MR/RC waiver services claimed for Federal reimbursement by the State
      agency on the Quarterly Medicaid Statement of Expenditures for the Medical Assistance
      Program (the Form CMS-64) to its accounting records for ACR for the quarter ended
      March 2005;

   •	 analyzed the State agency’s SFY 2005 payments to MR/RC service providers and
      determined that ACR received the second largest amount for all MR/RC providers;

   •	 selected an unrestricted random sample of 100 beneficiary-months from the population of
      all HCBS claimed and paid to ACR for services provided to beneficiaries under the
      MR/RC waiver during SFY 2005 (Appendix A) and:

           o	 reviewed the supporting documentation including individual service plans (ISP),
              medical administration records, health progress notes, risk management plans,
              daily log notes, goal reports, employee timesheets, and ACR monthly residence
              absence reports;

           o	 verified services were paid appropriately based on beneficiaries’ service
              agreements provided by the State agency;

           o	 verified claimed services by procedure code were included in the approved waiver
              application;

           o	 confirmed the beneficiaries’ Medicaid eligibility for the services;

           o	 determined whether the staff that provided the services were qualified and met
              annual training requirements;

           o	 requested individual service plans not available in ACR’s files from selected
              county offices that administered the MR/RC waiver program;

           o	 identified any services that were not provided or documented in accordance with
              applicable criteria; and

           o	 used the results of our sample to estimate the results for the sample population of
              beneficiary-months (see Appendix B).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.


                                                3

                         FINDINGS AND RECOMMENDATIONS 


During SFY 2005, the State agency claimed waiver services totaling $9,559 ($4,780 Federal
share) that did not comply with Federal or State requirements and we estimate the State agency
claimed waiver services totaling $198,539 ($99,270 Federal share) that may not have been
allowable for Medicaid reimbursement. Of the 100 random beneficiary months reviewed, the
State agency claimed reimbursement for HCBS that:

   •	 were provided by ACR and were allowable for 85 beneficiary months,

   •	 were unallowable for 7 beneficiary-months because ACR did not meet documentation
      requirements (2 of these beneficiary-months also included HCBS that may have been
      unallowable and are included within the next statement); and

   •	 may have been unallowable for 10 beneficiary-months because we could not determine
      whether the services claimed were actually provided or allowable for reimbursement.

The claims for unallowable services were made because ACR did not implement sufficient
internal controls to ensure it documented and claimed reimbursement only for allowable services
actually provided and county offices did not maintain ISPs and provide all ISPs to ACR. The
claims for services that may have been unallowable related to “leave days,” which are days in
which beneficiaries were temporarily absent from HCBS, but for which ACR may have been
responsible for the beneficiaries’ “24-hour plan of care.” Minnesota Administrative Code, State
agency guidance, and county office contracts with ACR did not consistently define “leave days”
or describe how reimbursement for these days should be determined for HCBS providers.
Consequently, we could not determine whether the State agency claims for HCBS during
beneficiaries’ “leave days” were allowable.

UNALLOWABLE HOME AND COMMUNITY-BASED WAIVER SERVICES

The State agency claimed waiver services totaling $9,559 ($4,780 Federal share) that did not
comply with Federal or State requirements.

Federal Requirements

Federal regulations require that HCBS are furnished under a written plan of care subject to
approval by the State agency (42 CFR § 441.301(b)(1)(i)). Further, Federal regulations state that
costs must be adequately documented in order to be allowable under Federal awards (2 CFR §
225, Appendix A (C.1.j.).

Section 2500.2 of the CMS “State Medicaid Manual,” instructs States to:

   Report only expenditures for which all supporting documentation, in readily reviewable
   form, has been compiled and which is immediately available when the claim is filed. Your
   supporting documentation includes as a minimum the following: date of service, name of


                                                4

   recipient, Medicaid identification number, name of provider agency and person providing the
   service, nature, extent, or units of service, and the place of service. Do not report estimated
   amounts. (Emphasis in the original.)

Section 4442.6 of the CMS “State Medicaid Manual,” states that an assessment of the individual
to determine the services needed to prevent institutionalization must be included in the plan of
care. Further, the plan of care must specify the medical and other services to be provided, their
frequency, and the type of provider. No Federal Financial Participation (FFP) is available for
HCBS waiver services furnished without a written plan of care.

State Requirements

Minnesota’s HCBS waiver states that each recipient (beneficiary) will have a plan of care
updated every 12 months. The individual plan of care is documented in the ISP. The county
office case managers are responsible for maintaining the ISP for a minimum of 3 years.

Minnesota Statute, Chapter 256B.092, subdivision 1b(8) requires that the ISPs must be agreed
upon and signed by the beneficiary, the beneficiary’s legal guardian, or the parent if the person is
a minor, and the authorized county representative. In addition, Minnesota Statute Chapter
245B.07 subdivision 1(3) provides that the license holder (provider) shall make a written request
to the county case manager to provide a copy of the ISP, when a case manager does not provide a
current ISP.

Unallowable Payments

The State agency claimed waiver services totaling $9,559 ($4,780 Federal share) for 7
beneficiary-months in which adequate documentation was not maintained in accordance with
Federal and State requirements. Specifically, the State agency claimed unallowable Medicaid
reimbursement for:

    •	 2 services, totaling $6,873, for one beneficiary-month when ACR did not maintain an
       updated ISP which included the beneficiary’s plan of care. While ACR did make a
       written request for an ISP to the county office, ACR did not obtain a current ISP;

    •	 267 services, totaling $2,606, for five beneficiary-months when ACR did not maintain
       adequate documentation to support county authorized supplemental residential
       habilitation services were actually provided. The documentation did not identify staff
       providing the services, frequency, or length of services for claimed service units.

    •	 1 service, totaling $80, for one beneficiary-month when ACR was unable to locate
       supporting documentation for claimed consumer-directed community services.

The claims for unallowable services were made because ACR did not implement sufficient
internal controls to ensure it documented and claimed reimbursement only for allowable services
actually provided and county offices did not maintain ISPs and provide all ISPs to ACR.




                                                 5

POTENTIALLY UNALLOWABLE HOME AND COMMUNITY-BASED WAIVER
SERVICES

We estimate the State agency claimed waiver services totaling $198,539 ($99,270 Federal share)
that may not have been allowable for Medicaid reimbursement.

Federal Requirements

Section 4442.3(B)(15) of the CMS “State Medicaid Manual” states, “FFP [Federal Financial
Participation] is not available to facilities providing services in residential settings on days when
waiver recipients are temporarily absent and are not receiving covered waivered services
(sometimes called reserve bed days). Medicaid payment may be made only for waiver services
actually provided to an eligible recipient. . . . Since providers incur fixed costs such as rent, staff
salaries, insurance, etc., even when a waiver recipient is temporarily absent, you may account for
such continuing costs when developing payment rates for these providers . . .”

State Requirements

Minnesota Rule 9525.1800 subpart 19a defines “leave days” as days when recipients are
temporarily absent from services.

The Minnesota Disability Services Program Manual (DSPM)3 states payment for leave days is
not allowed through the MR/RC waiver program. The DSPM defines waiver leave days under
the MR/RC Waiver as days when the beneficiary is not receiving residential services and the
residential service provider is not responsible for the 24-hour plan of care as indicated in the ISP.
The counties may apply occupancy adjustments (i.e., overhead expenses) in negotiating
individual rates with providers to account for leave days. The county contracts negotiated with
providers should specify the process that will be used by the county to adjust monthly or semi-
monthly rates for beneficiary waiver leave days.

The State agency issued Bulletin #00-56-30 on 11/08/2000 to clarify policy on leave days used
by persons on home and community-based services waivers. The Bulletin states:

    Payments for residential services funded through the MR/RC waiver program is
    limited to those services which are actually provided to an eligible recipient. Therefore,
    payment for leave days, defined as days in which the residential service provider is not
    responsible for the 24-hour plan of care as indicated in the individual service plan for
    MR/RC . . . is not reimbursable under the waiver. [Emphasis in original]

Payments for Waiver Leave Days

The State agency claimed reimbursement for beneficiary “leave days” during 10 beneficiary-
months. During these 10 beneficiary-months, the State agency claimed reimbursement for

3
 The Minnesota Disability Services Program Manual is an on-line manual at
http://www.dhs.state.mn.us/main/idcplg?IdcService=GET_DYNAMIC_CONVERSION&RevisionSelectionMethod
=LatestReleased&dDocName=id_000852. Accessed May 7, 2008.


                                                   6

services for 56 beneficiary-leave days, including 19 days when beneficiaries were hospitalized
and 37 days when beneficiaries were at family home visits.

Because Minnesota Administrative Code, State agency guidance, and county office contracts
with ACR did not consistently define “leave days” and describe how reimbursement should be
determined for HCBS providers, we could not determine whether the State agency claims for
HCBS during beneficiaries’ “leave days” were allowable.

RECOMMENDATIONS

We recommend the State agency:

   •	 refund $4,780 to the Federal Government;

   •	 work with CMS to resolve the $198,539 ($99,270 Federal share) in payments that may
      have been unallowable for HCBS claimed when beneficiaries may have been on “leave
      days;”

   •	 require county offices to maintain ISPs in accordance with Federal and State
      requirements, provide ISPs to ACR, and review provider contracts for compliance with
      State policy on “leave days;” and

   •	 require ACR to strengthen its internal controls to ensure it documents and claims
      reimbursement for MR/RC waiver services actually provided in accordance with Federal
      and State requirements.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, the State agency stated that it will review the
unsupported claim payments to determine the reason(s) for the lack of documentation, develop a
plan of correction to address those reasons, and verify the amount of the disallowance. The State
agency indicated it will work with CMS to resolve the $198,539 in questioned costs and will
require Dakota, Ramsey, and Hennepin counties and ACR to provide plans of correction and
timetables to implement corrective actions. The State agency’s comments are included in their
entirety as Appendix C.

We continue to recommend that the State agency refund $4,780 to the Federal Government.




                                                7

APPENDIXES 

                                                                                APPENDIX A


                              SAMPLING METHODOLOGY


POPULATION

The sample population consisted of 1,866 beneficiary-months of service where ACR received
Medicaid reimbursement totaling $13,752,062 ($6,876,031 Federal share) for MR/RC waiver
services provided to beneficiaries between July 1, 2004 and June 30, 2005. A beneficiary-month
was defined as all services provided for one beneficiary for one month.

SAMPLING FRAME

The sampling frame is the same as the population.

SAMPLE UNIT

The sampling unit was a beneficiary-month for which ACR provided waiver services to a
beneficiary and received Medicaid reimbursement from the State agency.

SAMPLE DESIGN

We used an unrestricted random sample of beneficiary-months.

SAMPLE SIZE

We selected a sample size of 100 beneficiary-months.

SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of Inspector General, Office of Audit
Service’s statistical sampling software. We used the random number generator for our simple
random sample.

METHOD FOR SELECTING SAMPLE ITEMS

The beneficiary-months were sequentially numbered. A list of 100 random numbers between 1
and 1,866 was generated. The random numbers were matched to the corresponding listing of
beneficiary-months.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services statistical software, to
estimate the amount the State agency claimed for MR/RC waiver services that may not have
been allowable for Medicaid reimbursement.
                                                                            APPENDIX B


                         SAMPLE RESULTS AND ESTIMATES

Of the 100 sampled beneficiary-months, 10 beneficiary-months included MR/RC waiver services
totaling $10,640 ($5,320 Federal share) that may have been unallowable for Medicaid
reimbursement. Using statistically valid sampling techniques, we estimate that State agency
claimed $99,270 for beneficiary “leave days” that may not have been allowable for Medicaid
reimbursement.

  Sample Estimate of Potentially Unallowable Beneficiary “Leave Day” Payments
               (Limits Calculated at the 90 percent Confidence Level)
                                 Total Unallowable             Federal Share
Point Estimate                        $198,539                    $99,270
Lower Limit                            60,799                      30,400
Upper Limit                            336,279                     168,140
APPENDIX C 

  Page 1 of 2 

APPENDIX C 

  Page 2 of 2 

